            U.S. Department of the Interior
                Office of Inspector General
                            Report No. C-EV-MOA-0003-2006




          Department of the Interior
Information Technology (IT) Systems Inventory



       EVALUATION REPORT

                AUGUST 2006
                              EXECUTIVE SUMMARY

  WHY WE DID THIS              We found that the Department of the Interior (DOI) has
  EVALUATION                   made significant progress in addressing our concerns about
                               information technology (IT) systems inventory expressed in
  The Federal Information      our report Annual Evaluation of the Department’s
  Security Management          Information Security Program (NSM-EV-MOI-0013-2005).
  Act (FISMA) requires         The Office of the Chief Information Officer (OCIO) has
  adequate security            initiated the consolidation of three separate IT systems
  measures and controls to
                               inventories into its DOI Enterprise Architecture Repository
  be in place to protect IT
  systems and mission-         (DEAR). Once completed, this consolidation should reduce
  critical data. To            discrepancies between multiple inventories and eliminate the
  accomplish this, a           need for time consuming manual reconciliations.
  complete and accurate
  IT systems inventory is      While OCIO has made progress in addressing our concerns
  essential.
                               with its IT systems inventory, we found four areas where
  Our FY2005 annual            controls could be strengthened by:
  evaluation of DOI’s
  information security            ¾ establishing greater accountability for bureau Chief
  program found that the            Information Officers (CIO) by requiring that they
  use of multiple
                                    review and certify the completeness and accuracy of
  inventories resulted in
  discrepancies, making it
                                    their IT systems inventories on an annual basis,
  difficult to maintain an
  accurate count of               ¾ mandating consistent DOI-wide procedures for
  systems. Additionally,            maintaining the IT systems inventory or requiring
0
  the process relied on             bureau CIOs to document their individual procedures
  manual efforts to
                                    for implementing OCIO’s general policies,
  reconcile the differences
  between the various
  inventories.                    ¾ documenting OCIO oversight procedures for the IT
                                    systems inventory process, and
  Our evaluation objective
  was to determine                ¾ ensuring that all IT systems in DEAR are correctly
  whether DOI has an
                                    mapped to an appropriate accreditation boundary.
  adequate process for
  inventorying its IT
  systems.                     We made four recommendations to help DOI improve its IT
                               systems inventory process.




                                               i
                             CONTENTS

Introduction……………………………………………………………………………. 1
    Evaluation Objective………………………………………………………………. 1
    Background………………………………………………………………………… 1

Evaluation Results……………………………………………………………………..                               3
   OCIO Has Made Significant Improvements ……………………………………...                  3
   Inventory Controls Can Be Strengthened in Four Areas……………………..........    3
   Establishing Greater Accountability for Bureau CIOs………………………….....        4
   Establishing Procedures for Maintaining IT Systems Inventory……………….....   4
   Documenting OCIO’s Oversight Procedures……………………………………...                  5
   Ensuring All Systems in the Inventory are Mapped to an
     Accreditation Boundary..………………………………………………………..                         6

Recommendations……………………………………………………………………. . 7

Appendices
   1 Scope and Methodology……………………………………………………….. 8
   2 Prior Audits and Evaluations…………………………………………………... 9
   3 Acronyms and Abbreviations………………………………………………....... 10




                                     ii
                        INTRODUCTION

EVALUATION   This report presents the results of our evaluation of the Department of the
OBJECTIVE    Interior’s (DOI) process for inventorying its information technology (IT)
             systems. Our objective was to determine whether DOI has an adequate
             process for inventorying its IT systems.

BACKGROUND   Legislation and guidelines have been enacted in recent years to help
             ensure the effectiveness of information security controls and to aid in
             achieving more secure IT systems within the federal government. For
             DOI to ensure that it has adequate security controls in place to protect its
             IT systems and mission-critical data, it must have an accurate and
             complete IT systems inventory.

             The Federal Information Security Management Act of 2002 (FISMA)
             requires federal agencies to provide information security protections to
             prevent unauthorized access, use, disclosure, disruption, modification, or
             destruction of IT systems and data. FISMA also requires agencies to
             develop and maintain an inventory of major IT systems and to update the
             inventory annually.

             The National Institute of Standards and Technology has established
             guidance requiring federal agencies to certify and accredit their systems.
             Certification requires a comprehensive assessment of security controls to
             ensure they are implemented correctly, operating as intended, and
             producing the desired outcomes. Accreditation refers to the agency’s
             official management decision to authorize operation of an information
             system based on the implementation of security controls.

             Historically, DOI has maintained three separate IT systems inventories:

                 1. DOI-wide inventory: The DOI-wide inventory has been
                    maintained in a module of the DOI Enterprise Architecture
                    Repository (DEAR) maintained by the Office of Chief
                    Information Officer (OCIO).

                 2. Bureau-level inventories: Each DOI bureau has used a localized
                    version of DEAR known as the Bureau Enterprise Architecture
                    Repository (BEAR) to manage its separate IT systems
                    inventories.




                                          1
    3. Certified and accredited systems inventory: DOI also maintained
       a separate inventory of IT systems that were certified and
       accredited in the DOI Command Center system.

DOI’s primary guidance to ensure that it has an accurate and complete
inventory is OCIO Directive 2004-010, dated April 2004. This policy
stipulates that:

   ¾ All DOI systems and information technology investments will be
     tracked in DEAR.

   ¾ Bureau CIOs are responsible for ensuring the accuracy and
     completeness of their respective IT systems inventory and
     investments.

   ¾ The data in each system will be periodically updated.

   ¾ Any system that does not fall into the DOI-tracked system
     categories must still be tracked in the appropriate BEAR.

   ¾ For systems used by multiple bureaus, the bureau or office that
     manages the system is responsible for providing and updating
     information about it.

In our report, Annual Evaluation of the Department’s Information
Security Program (NSM-EV-MOI-0013-2005, dated October 2005), we
expressed concerns about the use of multiple inventories and the
discrepancies between those inventories. Using multiple inventories for
reporting purposes makes it difficult to maintain an accurate inventory
count. Additionally, we reported that the inventory process was not
efficient because it relied on manual efforts to reconcile the various
systems.

This report follows up on our previous concerns. Throughout this report,
we note where OCIO has made progress in its IT systems inventory
process and where additional improvements should be made. Appendix 1
contains information on the scope and methodology we used in
conducting this evaluation. Appendix 2 provides additional information
on related reviews.




                            2
                      EVALUATION RESULTS

OCIO HAS MADE     We found that DOI has made progress in addressing the concerns about
SIGNIFICANT       IT systems inventory that we expressed in our report Annual Evaluation
IMPROVEMENTS      of the Department’s Information Security Program (NSM-EV-MOI-
                  0013-2005).

                  DOI has initiated processes to consolidate the different IT systems
                  inventories into DEAR. In April 2006, OCIO moved the inventory of
                  certified and accredited systems from the DOI Command Center system
                  to DEAR. OCIO is currently in the process of enabling bureaus to
                  maintain their IT systems inventories directly in DEAR via real-time
                  web access. This change, expected to occur this year, will eliminate the
                  need to maintain separate inventories in DEAR and bureau BEARs. It
                  will also eliminate the delay between when a system is entered by the
                  bureau and when it actually appears in DEAR. Previously, bureaus
                  input their systems information into their BEARs and then the data
                  were merged into the DEAR during a quarterly synchronization
                  process. These steps should help reduce discrepancies between
                  multiple inventory systems and eliminate the need for time-consuming
                  manual reconciliations.

INVENTORY         While OCIO has taken significant steps to address problems with its IT
CONTROLS CAN BE   systems inventory, we identified four areas where the controls could be
STRENGTHENED IN   strengthened to provide greater assurance of an accurate and complete
FOUR AREAS        DOI-wide inventory. These areas include:

                     ¾ establishing greater accountability for bureau CIOs,

                     ¾ documenting procedures for maintaining the IT systems
                       inventory,

                     ¾ documenting OCIO oversight of the IT systems inventory
                       process, and

                     ¾ ensuring that all IT systems in DEAR are correctly mapped to
                       an appropriate accreditation boundary.




                                             3
ESTABLISHING      The DOI CIO is ultimately responsible for completeness and accuracy
GREATER           of the DOI-wide IT systems inventory, which contained over 750
ACCOUNTABILITY    systems as of February 2006. However, OCIO must rely on the bureau
FOR BUREAU CIOS   CIOs to ensure that their IT systems inventory data are complete and
                  accurate in their respective BEARs before the quarterly synchronization
                  process occurs to update DEAR. In the future, OCIO will rely on
                  bureau CIOs to ensure that their bureaus input complete and accurate IT
                  systems inventory data directly into DEAR in a timely manner.

                  Despite OCIO’s reliance on bureau CIOs, there is no requirement for
                  them to periodically certify the completeness and accuracy of their
                  inventory data. As part of our evaluation, we provided DEAR
                  inventory listings to the Bureau of Land Management (BLM), the
                  National Park Service (NPS), and the U.S. Geological Survey (USGS)
                  and asked that they verify the completeness and accuracy of the
                  inventory data. The NPS CIO’s enterprise architect was unable to
                  verify the completeness and accuracy of NPS’ IT systems inventory
                  data and stated that the DEAR data needed to be validated. After our
                  site visit, the NPS enterprise architect provided OCIO a certification
                  indicating that all major applications within NPS were included in the
                  inventory and, to the best of his knowledge and belief, all other NPS
                  systems were reflected in the inventory. The certification
                  acknowledged that ongoing validation activities were underway to
                  improve the quality of information related to the inventory.

                  In our opinion the process could be strengthened by OCIO requiring
                  bureau CIOs to certify the completeness and accuracy of the DEAR
                  inventory data on an annual basis in conjunction with FISMA’s
                  requirement for annual maintenance and update. This requirement
                  would establish greater accountability for the bureau CIOs and should
                  improve the reliability of the IT systems inventory data.

ESTABLISHING      In September 2003, the Government Accountability Office (GAO)
PROCEDURES FOR    issued a report on BLM’s management of its IT investments titled
MAINTAINING IT    Bureau of Land Management: Plan Needed to Sustain Progress in
SYSTEMS           Establishing IT Investment Management Capabilities (GAO-03-1025).
                  In that report, GAO identified the following as a key practice:
INVENTORY
                        The organization has written policies and procedures for
                        identifying its IT projects and systems and collecting, in an
                        inventory, information about the IT projects and systems that
                        is relevant to the investment management process.

                  The report concluded that BLM had not fully executed this key practice
                  because it had not yet defined its policies and procedures for investment
                  management purposes.


                                              4
              Our evaluation found that while OCIO Directive 2004-010 established
              the general policy for the maintenance of an IT systems inventory,
              neither OCIO nor the bureaus have established procedures that document
              the steps used to implement the directive’s requirements. In practice, we
              found that the three bureaus we visited established different approaches
              to maintaining their inventories. However, none of these approaches
              were formally documented in the form of written policies and
              procedures.

              In our opinion, the inventory process would be strengthened by the
              establishment of DOI-wide procedures for inventory maintenance.
              However, at a minimum, OCIO should require bureau CIOs to document
              their individual procedures.

DOCUMENTING   Our evaluation found that OCIO has not documented its procedures for
OCIO’S        providing oversight to the inventory process. To its credit, OCIO uses
OVERSIGHT     a number of procedures to help ensure a complete and accurate
PROCEDURES    inventory.

                  ¾ OCIO compares the DEAR inventory to annual Exhibit 300s
                    used to report systems investments to the Office of
                    Management and Budget.

                  ¾ OCIO uses information from modernization blueprint projects
                    to discover existing systems not included on the inventory.
                    These projects include research to ascertain and document the
                    current as-is system architecture business lines under review.

                  ¾ OCIO reviews annual budget submissions to find any IT
                    systems not identified in the current inventory.

              However, none of these procedures have been formally documented.
              Documented procedures are important for establishing requirements,
              identifying responsible parties, describing actual steps for performing
              procedures, providing a basis for holding staff accountable for
              performing required procedures, and ensuring continuity of operations
              after staff turnover.

              One additional area that needs to be documented is OCIO’s procedures
              to provide oversight for new additions to the IT systems inventory. This
              is the ideal time for OCIO to provide oversight and ensure that bureaus
              are inputting complete and accurate data for new IT systems into DEAR.
              We asked OCIO officials for documentation of oversight policies and
              procedures. In response, the OCIO provided a PowerPoint presentation
              that documented the process flows for when an IT system is added or
              deleted from the inventory, but did not provide written policies or


                                          5
                 procedures that are actually in place and being followed. Further, OCIO
                 officials stated that they are generally notified about new systems via
                 email from the bureaus and that they generally review the data for
                 reasonableness. However, we noted that there are no policies or
                 procedures requiring bureaus to report new additions or requiring OCIO
                 to timely review them. This creates the opportunity for a system to be
                 added for which OCIO is unaware, and could lead to incomplete or
                 inaccurate information on the system.

                 OCIO officials stated that new controls will be incorporated into DEAR
                 that will require the CIO or a designate to authorize all system additions
                 and will automatically notify OCIO when a system has been added to
                 DEAR. These system enhancements should help improve the reliability
                 of data on new systems; however, OCIO will need to document the
                 procedures it will perform once notified of a system addition.

ENSURING ALL     In our report Annual Evaluation of the Department’s Information
SYSTEMS IN THE   Security Program (NSM-EV-MOI-0013-2005), we reported that DOI
INVENTORY ARE    was in the process of matching IT systems in the certification and
MAPPED TO AN     accreditation inventory maintained in the Command Center system to the
ACCREDITATION    DOI-wide IT systems inventory maintained in DEAR. There was not a
                 one for one matching between these inventories because IT systems
BOUNDARY
                 separately identified in the DEAR inventory were often combined into a
                 “parent system” for purposes of certification and accreditation. DOI
                 completes accreditation packages for each “parent system.”

                 In early 2006, OCIO merged the inventory of certified and accredited
                 systems into DEAR although the matching had not yet been completed.
                 DEAR identifies those “parent systems” as “accreditation boundaries.”
                 OCIO Directive 2006-09 requires that all IT systems in DEAR be
                 mapped to an associated accreditation boundary within DEAR. At the
                 time of our review, there were 257 systems in DEAR that were not yet
                 mapped. Of the 257 systems not mapped, 104 were from NPS. The
                 enterprise architect at NPS stated that a reconciliation of these systems
                 was ongoing and 70 of these systems had been eliminated or mapped to
                 existing accreditation boundaries as of April 2006, leaving 34 systems
                 still unmapped.

                 This situation makes it possible for the OCIO to not know whether those
                 remaining systems have undergone the required certification and
                 accreditation process. This condition leaves DOI potentially vulnerable
                 to information security weaknesses. OCIO maintains that progress is
                 being made toward resolving the issue of all systems not designated in
                 DEAR as being certified and accredited. We agree that progress has
                 been made but believe that more diligence is necessary to ensure that all
                 systems in DEAR are mapped to an accreditation boundary as soon as
                 possible.


                                             6
                         RECOMMENDATIONS
We recommend that the Chief Information Officer:

     1. Develop and implement policies and procedures that require bureau CIOs to
        certify the completeness and accuracy of their bureaus’ inventory data in
        DEAR on an annual basis.

     2. Mandate consistent DOI-wide procedures for maintaining IT systems
        inventory or require bureaus CIOs to document their individual procedures for
        implementing OCIO’s general guidelines.

     3. Document OCIO procedures for providing oversight to the inventory process.

     4. Complete the mapping of all IT systems in DEAR to an accreditation
        boundary.




                                         7
                                                                           Appendix 1


                     SCOPE AND METHODOLOGY
We reviewed the IT systems inventory processes at OCIO and three bureaus to determine
whether DOI has an adequate process for inventorying its IT systems by interviewing
staff responsible for the oversight and maintenance of IT systems inventories. In
addition, we:

   ¾ reviewed laws, policies, procedures, and guidance relating to IT systems
     inventories;

   ¾ reviewed current and proposed processes for the maintenance of IT systems
     inventories and selected security controls; and

   ¾ reviewed prior audit and evaluation reports, Government Performance and Results
     Act goals, and Departmental Performance and Accountability Reports to
     determine whether they discussed issues relating to IT systems inventories.

We conducted our evaluation from December 2005 through March 2006 and reviewed
the IT system inventories as of February 3, 2006. We did not evaluate the actual
accuracy or completeness of the IT systems inventory in DEAR. In addition, we did not
review the inventory processes for any national security-related systems.

Our evaluation was performed in accordance with the Quality Standards for Inspections,
dated January 2005, issued by the President’s Council on Integrity and Efficiency.

DURING THIS EVALUATION, WE CONDUCTED ONSITE WORK AT THE
FOLLOWING OFFICE AND BUREAUS:

Department of the Interior
Office of the Chief Information Officer                 Washington D.C.
Bureau of Land Management                               Lakewood, CO
National Park Service                                   Washington D.C.
U.S. Geological Survey                                  Reston, VA




                                           8
                                                                              Appendix 2


          PRIOR AUDITS AND EVALUATIONS
The Office of Inspector General (OIG) has reported on DOI’s IT system inventory
processes as part of our annual FISMA reporting. The following report contained
specific areas related to our current evaluation:

   •   Annual Evaluation of the Department’s Information Security Program,
       OIG Report No. NSM-EV-MOI-0013-2005, October 2005.

       The report stated that DOI did have an IT inventory system in place but still relied
       on manual efforts to reconcile various systems counts and used a separate
       inventory for its certified and accredited IT systems. OIG generally agreed with
       the number of IT systems contained in the inventory. While no IT systems were
       found missing from the inventory, OIG did not believe that DOI had an efficient
       inventory process in place. Further, OIG was concerned about the various
       different inventories used to report IT system counts.

During the past 5 years, the Government Accountability Office (GAO) has not issued any
reports specifically related to DOI’s IT systems inventories. However, it issued the
following report on IT investment management:

   •   Bureau of Land Management: Plan Needed to Sustain Progress in
       Establishing IT Investment Management Capabilities, Report No.
       GAO-03-1025, September 2003.

       GAO reported that the Bureau of Land Management (BLM) had made progress in
       establishing its IT investment management capabilities, but still needed to
       develop and implement a plan to guide its efforts in the IT investment
       management area. GAO recommended that this plan include specific measurable
       goals, outcomes, and needed resources, and assign clear responsibility for tasks.
       Further, the report stated that BLM had not defined policies and procedures for
       collecting information into the Budget Planning System in order to help it make
       informed investment management decisions. A key practice cited in the report is
       the need for establishing policies and procedures for identifying IT projects and
       systems and collecting, in an inventory, information about the IT projects and
       systems that is relevant to the investment management process.




                                            9
                                                              Appendix 3


        ACRONYMS AND ABBREVIATIONS
BEAR            Bureau Enterprise Architecture Repository
BLM             Bureau of Land Management
C&A             Certified and Accredited
CIO             Chief Information Officer
DEAR            DOI Enterprise Architecture Repository
DOI             Department of the Interior
FISMA           Federal Information Security Management Act
GAO             Government Accountability Office
IT              Information Technology
NPS             National Park Service
OCIO            Office of the Chief Information Officer
OIG             Office of Inspector General
USGS            U.S. Geological Survey




                            10
